August 18, 2010

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

JOYCE H. CARRIER
MANAGER, ADVERTISING AND MEDIA PLANNING

SUBJECT: Audit Report – Advertising Cost Reporting
         (Report Number CRR-AR-10-004)

This report presents the results of our review of controls over advertising cost reporting
(Project Number 10RR001CRR000). Our objectives were to determine whether
advertising costs were accurately reported to the Postal Regulatory Commission (PRC)
and whether Priority Mail® advertising costs were shifted to other products in an attempt
to make Priority Mail appear to be more successful.

The Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006) requires
managers to allocate costs directly related to a market-dominant or competitive product,
including advertising costs, to that specific product.1 Organizational costs that are not
allocable to a specific market-dominant or competitive product are considered
institutional costs. Institutional costs include overhead costs for the U.S. Postal Service
and encompass items such as general administrative expenses, or advertising
campaigns promoting the Postal Service brand and not a specific product. Each Postal
Service product is priced to cover its own costs and to contribute to covering institutional
costs.

The Postal Act of 2006 also requires the Postal Service to provide an Annual
Compliance Report (ACR) to the PRC within 90 days of the end of each fiscal year (FY).
The ACR contains a variety of data on costs, revenue, rates, and quality of service in
order to demonstrate that products complied with the Postal Act of 2006.

The misallocation of competitive product costs between market-dominant product costs
or institutional costs creates the potential for what is known as cross-subsidization.
Cross-subsidization is prohibited to ensure the Postal Service does not gain an unfair
pricing advantage over its competitors for competitive products and that prices for

1
  Market dominant products are those products for which the Postal Service has a legal monopoly to control and
include classes of mail such as standard and First-Class™. Competitive products are those products that the Postal
Service provides which compete with products offered by competitors and include mail such as Priority and Express.
Advertising Cost Reporting                                                                          CRR-AR-10-004



market-dominant (monopoly) products are not improperly inflated. For example, shifting
costs from a competitive product such as Priority Mail to a market-dominant mail
product or to institutional costs could allow Priority Mail to be priced more competitively
and the market-dominant product (such as First-Class Mail®) to be overpriced.

The Postal Service’s advertising costs totaled $104.2 million in FY 2009. The
advertising budget for FY 2010 is $        million. As of February 24, 2010, $77.1 million
of the advertising budget had been committed to specific tasks by corporate
advertising.2 The Postal Service initiated a major Priority Mail advertising campaign in
FY 2009 and is continuing this campaign in FY 2010. See Appendix A for additional
information about this audit.

Conclusion

The Postal Service did not accurately report advertising costs to the PRC. Specifically,
the Postal Service understated Priority Mail advertising costs, which made the product
appear to be more profitable.

The Postal Service lacked written guidance for collecting and reporting costs for their
ACR. Following passage of the Postal Act of 2006, management did not issue written
instructions clarifying how to allocate advertising costs to various products and services
because they did not view the act as a change to their previously used methods. The
agency did not document this previous methodology. Therefore, management did not
develop written policies and procedures as implementing guidance on this section of the
act because they viewed the act as “status quo” regarding their methods.

In addition, during FY 2009, advertising managers changed their procedures for
allocating advertising costs without notifying finance personnel of the change. The new
procedures did not follow the PRC’s established cost methodology. Using cost
allocation criteria we developed in discussions with PRC and Postal Service managers,
we determined that Finance managers corrected some, but not all, of these
misallocations, resulting in a misstatement of advertising costs reported to the PRC.
The remaining misallocations shifted Priority Mail advertising costs to other classes of
mail.

We also recalculated reported advertising costs for recent advertising campaigns. For
FY 2009, Postal Service advertising managers understated competitive product
advertising costs by $14.3 million.




2
 This is as of February 2010 and does not include potential advertising expenditures that may occur at Postal
Service field locations.




                                                         2
Advertising Cost Reporting                                                                           CRR-AR-10-004



Finance managers corrected some of these misstatements, with the following effects:

        Priority Mail costs were understated by $    million and other competitive product
         advertising costs were overstated by $     million. This resulted in a net
         $     million understatement of competitive product costs reported in the 2009
         ACR.

        The $5.6 million understatement of Priority Mail costs inflated the perceived
         profitability of Priority Mail.

        Although the $3.1 million net understatement of competitive products does not
         meet the threshold for cross-subsidization as defined by the PRC, 3 such shifting
         of advertising costs is prohibited.

        While these understatements of competitive product advertising costs are not
         large, accumulated misallocations, if uncorrected, may impact the future pricing
         of competitive products and could lead to cross-subsidization.

Misallocation of advertising costs by advertising managers increased in FY 2010. If the
figures in place at the time of our audit were reported to the PRC, the Postal Service
would have understated Priority Mail costs by $ million and competitive product costs
would have been misallocated to market-dominant and institutional costs by this
amount. These misstatements may have increased during FY 2010 because
management had not yet allocated $ million of the budgeted advertising costs to
specific products at the time of our audit. We present the details regarding the
misstatements and their impact below.

Allocation of Advertising Costs

The misstatements occurred for the following reasons:

        Finance management did not issue written guidance for collecting and reporting
         product costs in accordance with the Postal Act of 2006.

        During FY 2009, advertising managers changed their procedures for allocating
         advertising costs for single product advertising campaigns (for example Priority
         Mail), which did not follow established cost allocation methodologies. Senior
         advertising management held discussions with the advertising contractor, which
         led to changes whereby costs for single product advertising campaigns were
         often allocated at 70 percent to the product and 30 percent to institutional costs

3
  The PRC determines whether total revenue from all competitive products equal or exceed the total incremental
costs of all competitive products. Incremental costs are the costs avoided by eliminating a mail product or service,
assuming all other products continue to be provided at their current volume. Incremental costs may include portions
of institutional costs.




                                                          3
Advertising Cost Reporting                                                                         CRR-AR-10-004



        rather than 100 percent to the product as required. See Appendix B for the
        impact of the 70/30 percent cost allocation.

       Advertising, Legal, and Finance managers did not properly coordinate to ensure
        there was a mutual understanding regarding the cost reporting requirements for
        the ACR.

       Advertising management relied on Tracker,4 an inadequate project management
        system, to record and allocate advertising costs. For example, the budget
        categories in the Tracker system do not align with the product categories
        required in ACR reporting.

We present specific details of the misstatements for each fiscal year below:

FY 2009 - Advertising Costs Reported by Advertising Management

FY 2009 advertising costs reported by advertising managers to Finance were misstated.
If Finance had not corrected these misstatements, the following would have occurred:

       Priority Mail advertising costs would have been understated by $         million,
        inflating the perceived profit of this product, which made it appear to be more
        successful.

       $14.3 million of competitive product costs would have been misallocated to
        market-dominant and institutional costs.

See Appendix D for detailed information regarding the misstatements and the U.S.
Postal Service Office of Inspector General (OIG) calculated advertising costs for FY
2009 reported by advertising management.

FY 2009 - Advertising Costs Reported in the ACR

In FY 2009 Finance became aware that certain corrections were needed to the cost
data provided by the advertising managers prior to reporting that data to the PRC. After
consultation with Segment Advertising management, Finance managers corrected
some of the reporting errors. However, our recalculations indicate they did not correct
aggregate adjustments totaling $11.2 million reported to the PRC.

The following are examples of misstatements the Postal Service reported to the PRC:

       Priority Mail advertising costs were understated by $  million and other
        competitive product advertising costs were overstated by $    million. These

4
 Tracker is a web-based application, developed in 2002, that is used to program the corporate advertising budget;
create and track tasks associated with individual campaigns; reconcile vendor invoices with deliverables; and
calculate year-end product cost allocations.




                                                         4
Advertising Cost Reporting                                                                     CRR-AR-10-004



           misstatements inflated the perceived profit of Priority Mail, which made it appear
           to be more successful.

          $3.1 million of competitive product costs were misallocated to market-dominant
           and institutional costs.

See Appendix E for detailed information regarding the misstatements and the OIG’s
calculated FY 2009 advertising costs reported in the ACR.

FY 2010 – Interim Advertising Costs

We examined the $77.1 million of corporate advertising costs committed as of
February 24, 2010, and determined they were misstated by an aggregate of $44 million.
These misstatements may have increased during the fiscal year, as the Postal Service
had not yet allocated $ million of the budgeted advertising costs to specific products
at the time of our audit. If uncorrected, the following are examples of the misstatements
that would have occurred:

          Priority Mail advertising costs would have been understated by $ million. This
           would have increased the perceived profitability of Priority Mail. Cumulative
           uncorrected misallocations could delay future price increases.

          $21.8 million of competitive product costs would have been misallocated to
           market-dominant and institutional costs.

See Appendix F for detailed information regarding the misstatements and the
OIG-calculated advertising costs for FY 2010.

Advertising management took action during our audit to correct the FY 2010 advertising
cost misstatements related to the 70/30 percent cost allocation. However, management
has not yet corrected other misstatements related to the costs of multiple-product
advertising campaigns because they believe there can be some additional flexibility in
allocating costs for these campaigns. Accordingly, further adjustments may be
necessary to be consistent with established costing methodologies. We are making
recommendations to management to bring reporting of advertising expense into full
compliance with cost allocation methodologies established with the PRC.

FY 2008 – Advertising Costs Reported in the ACR

We reviewed FY 2008 advertising costs to develop a baseline as to how advertising
costs were reported, and our recalculations determined that advertising costs reported
to the PRC in the FY 2008 ACR were misstated by an aggregate of $19.8 million.5 We
noted that management did not follow the established cost allocation methodology for

5
    For the details of the aggregate misstatements for each fiscal year, see Appendices E-H.




                                                            5
Advertising Cost Reporting                                                        CRR-AR-10-004



single product campaigns. We also noted that management did not use the 70/30
percent cost-allocation methodology in FY 2008. However, the following are examples
of misstatements that we noted:

    Overstatement           of market-dominant product advertising costs by $1.3 million.

      Overstatement of competitive product advertising costs by $8.6 million.

      Understatement of institutional costs by $9.9 million.

As a result, the perceived profitability of various market-dominant and competitive
products was understated by $9.9 million in FY 2008. See Appendix G for detailed
information regarding the misstatements and the OIG calculated advertising costs for
FY 2008.

Strengthening controls over reporting of advertising costs could assist the Postal
Service in maintaining stakeholder confidence and goodwill in the processes used to
price products and services and ensure that the potential for cross-subsidization does
not occur.

We recommend the chief financial officer and executive vice president direct the
manager, Regulatory Reporting and Cost Analysis, to:

1. Coordinate with the Law Department and Segment Advertising to develop adequate
   guidance, controls, and processes to ensure reporting of advertising costs is done in
   compliance with Postal Regulatory Commission-approved costing methodology and
   correct any remaining misstatements in fiscal year 2010 advertising costs.

2. Develop an approval process to ensure changing advertising cost allocation
   methodologies is done in accordance with Postal Regulatory Commission-approved
   costing methodology.

3. Consult with the Postal Regulatory Commission to determine whether restating fiscal
   years 2008 and 2009 Annual Compliance Reports is necessary.

We recommend the manager, Advertising and Media Planning, direct the manager,
Segment Advertising, to:

4. Develop and implement detailed system requirements for the Tracker System to
   provide project management information that ensures ability to appropriately
   attribute advertising costs.




                                                  6
Advertising Cost Reporting                                                     CRR-AR-10-004



Management’s Comments

Management agreed with our recommendations. Although management did not agree
with all of the assertions, methodologies, and conclusions contained in the finding, they
stated they agree and intend to comply with all of the recommendations.

With regard to recommendation 1, management stated that no formal written guidelines
were provided to the Segment Advertising staff. As a result, they were unfamiliar with
the cost categories needed to develop the ACR. Management stated that its guidelines
for allocating the costs of advertising tasks relating to two or more products may differ
from those the audit team used and questioned the methodology of the audit staff,
particularly for splitting advertising costs evenly between two products. Management, in
consultation with Segment Advertising and the Law Department, will develop written
guidelines for determining and reporting advertising costs that meet the cost allocation
strategy within the PRC’s approved costing methodologies by September 30, 2010.

Regarding recommendation 2, management stated that, until this year, Segment
Advertising was not aware that changes to their budget categories might have an
impact on product totals required by ACR reporting and Finance was not always aware
that budget categories had changed. Management also stated that Finance would
coordinate with Segment Advertising to develop a process by September 30, 2010, to
ensure that Advertising communicates any changes to their cost categories or cost
allocation methodologies to Finance for review and approval. If compliance is in
question, Finance will coordinate with Segment Advertising to develop a mutually
agreed-upon approach.

Regarding recommendation 3, management stated they notified the PRC on
July 7, 2010, of the audit findings and an estimate of the impact of the potentially
misstated costs on the total contribution of competitive products to institutional costs in
the FY 2009 ACR. The letter also included a revised calculation of Priority Mail’s cost
coverage.

Regarding recommendation 4, management stated that they designed the current
Tracker system (in use since 2002) for budgeting and project management purposes
and that Segment Advertising was not aware that the system’s outputs did not always
meet ACR requirements. Management stated that Finance would coordinate with
Segment Advertising to develop detailed system requirements for generating outputs
that align with current regulatory reporting categories and comply with PRC-approved
cost methodologies. The new or upgraded system will produce ACR product totals in
time for production of the FY 2011 ACR. Management indicated that some manual
summarization might be needed for both FY 2010 and 2011 ACRs. Management’s
comments, in their entirety, are included in Appendix I.




                                             7
Advertising Cost Reporting                                                     CRR-AR-10-004



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Management agreed that there was some misallocation of costs but stated they did not
agree with the method the OIG used to calculate cost misallocations and the summary
of non-monetary benefits. At the time of our audit, the Postal Service did not have
written guidance on how single- and multi-product advertising costs should be allocated.
In addition, interim guidance distributed by Finance to Advertising management on
February 2, 2010, did not specifically describe how to allocate multi-product advertising
costs. Finally, eliminating the 50-50 split from the OIG’s allocation criteria for evaluating
the advertising costs for two products would increase, not decrease, the misallocations
we would have reported in Appendices D through H. As noted in management’s
response, there may be “gray areas” in interpreting how to properly report advertising
expenses; however, we did not include amounts related to “gray areas” in our calulation
of misallocated advertising costs.

The OIG considers recommendations 1, 2, and 4 to be significant, and therefore
requires OIG concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Revenue, and Rates, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Mary A. Gibbons
    Joseph D. Moeller
    Jeffrey L. Colvin
    Dennis J. Gomes
    Corporate Audit Response Management




                                              8
Advertising Cost Reporting                                                                             CRR-AR-10-004



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Act of 2006 requires the Postal Service to provide an ACR within 90 days
after the end of each fiscal year. The ACR contains a variety of data on costs, revenues,
rates, and quality of service in order to demonstrate compliance with reporting
requirements.

The Postal Act of 2006 requires managers to attribute costs, including advertising costs,
directly related to a product to that specific product. Organizational costs not allocated
to a specific product are considered institutional costs. Institutional costs includes,
essentially, overhead costs for the Postal Service and encompass items such as
portions of executive salaries and general administrative expenses, or advertising
campaigns promoting the Postal Service brand and not a specific product. Prices for
specific market-dominant and competitive products6 are established with a pricing
strategy to generally cover attributable costs, plus a contribution margin to defray
institutional costs.7 Cross-subsidization of market-dominant and competitive product
costs is prohibited to ensure the Postal Service does not gain an unfair pricing
advantage over competitors. See Appendix C for OIG’s interpretation of PRC’s
guidance on the treatment of advertising costs for ACR reporting.

The Postal Service incurs advertising costs to promote various products, services and
overall brand awareness. The Postal Service’s advertising costs totaled $104.2 million in
FY 2009 and $106.6 million in FY 2008.8 In FY 2009, Advertising and Media Planning
managed $84 million in advertising costs. Expedited Shipping Services managed an
additional $10.1 million in advertising costs while field and miscellaneous advertising
costs totaled another $10.1 million. While the FY 2008 advertising campaign did not
focus on a particular product, the Postal Service initiated a major Priority Mail campaign
in FY 2009.

Advertising management uses the Tracker system to perform project management
functions, including authorization, monitoring, and reporting of advertising costs.
Annually, advertising management provides summary advertising cost data to Finance
management to prepare the ACR, and the Law Department files the ACR with the PRC.




6
  Market-dominant products are mailing services and competitive products are shipping services.
7
  The Postal Act of 2006 requires that competitive products cover a minimum of 5.5 percent of the Postal Service’s
institutional costs. In FY 2009, competitive products contributed $2.0 billion toward institutional costs, which exceeded
the 5.5 percent requirement by $368 million.
8
  Advertising costs are a small portion of the Postal Service expenses of $71.8 billion.




                                                           9
Advertising Cost Reporting                                                            CRR-AR-10-004



OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether advertising costs were accurately reported to
the PRC and whether Priority Mail advertising costs were shifted to other products in an
attempt to make it appear more successful. Specifically, we determined whether
methods for collecting, allocating, and reporting advertising costs for mail products and
services were appropriately and consistently applied.

We reviewed statutory requirements and met with PRC, Law Department, and Finance
managers to discuss reporting criteria. Advertising and contractor personnel provided
information regarding budgeting, approval, and reporting of advertising costs. Finance
personnel described adjustments they made to advertising cost data that were needed
for the ACR.

We used computer-generated data from Tracker and performed comparative analysis
tests with general ledger data to ascertain the validity of reported advertising costs. We
found the data to be reliable to accomplish the audit objective. We recalculated the
allocation of advertising costs for FYs 2008, 2009, and 20109 based on statutory
requirements and guidance we received from PRC, Law Department, and Finance.

We conducted this audit from January through August 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on July 7, 2010, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

The OIG has not conducted any prior audits of advertising costs specifically related to
the objective of this audit.




9
    FY 2010 advertising costs are as of February 24, 2010, as reflected in Tracker.




                                                            10
  Advertising Cost Reporting                                                      CRR-AR-10-004



                                      APPENDIX B: DETAILED ANALYSIS

  Misallocation of Single Product Advertising Costs (70/30 Allocation)

  During FY 2009, advertising management discussed with contractor support personnel
  the need to begin allocating, where possible, 70 percent of advertising costs related to
  single mail products (for example Priority Mail) to the product and 30 percent to
  institutional costs. While senior management officials were uncertain whether there
  were direct instructions to advertising contractors to begin using the 70/30 allocation
  percentage, the contractors submitted task orders for approval with this percentage and
  advertising management routinely approved them.

  Use of this 70/30 allocation percentage began in November 2008 and accelerated
  during FY 2010. For example, FY 2009 task orders totaling $        million used the 70/30
  allocation percentage for single product advertising, while $     million in FY 2010 task
  orders used the 70/30 allocation percentage. See Table 1 for summary information
  regarding the use of the 70/30 percent cost allocation on single product advertising task
  orders and Appendix C for PRC reporting guidance.

             Table 1. FY 2008 - 2010 Allocation of Single-Product Advertising Costs
                                Using 70/30 Allocation Percentage
                                          ($ in Millions)

                                           FY 2008               FY 2009         FY 2010
                                        Number Amount       Number Amount    Number Amount
Task Orders with 70/30 allocation (a) 0              $0         166      $      111      $
Task Orders - Total (b) 1,700                      $          1,677      $      556      $

Ratio (a / b) -                                         -     10%     54%      20%      72%

  Using costing methologies we developed in consultation with the PRC, these allocations
  resulted in the understatement of product-specific costs by $       million10 in FY 2009,
  and would have understated product-specific costs by $        million11 in FY 2010 if the
  ACR were prepared based on advertising cost data as of February 24, 2010. These
  allocations contravened the PRC’s established costing practices because the
  advertising costs should have been allocated 100 percent to the specific products
  associated with the task orders. During our audit, management corrected
  single-product cost allocations for FY 2010.

  Project Management System

  Management relied on Tracker, a project management system, to record and allocate
  advertising costs. The Tracker system is an ad hoc system developed by a contractor to

  10
       30 percent of $34.6 million.
  11
       30 percent of $44.4 million.




                                                   11
Advertising Cost Reporting                                                  CRR-AR-10-004



perform project management functions such as tracking advertising task orders,
allocating costs among products, and generating management reports. Advertising
management also uses it as a budget-tracking tool. However, the system does not
properly capture the necessary information to track the costs in accordance with PRC’s
establish costing practices. In addition, the budget categories in the Tracker system do
not align with the product categories required in ACR reporting. This occurred because
adequate system requirements were not developed prior to implementation of the
system. As a result, manual summarization is required to gather the necessary
advertising cost information required in the ACR. This inefficient process is prone to
error.




                                           12
Advertising Cost Reporting                                                        CRR-AR-10-004



                           APPENDIX C: COST ALLOCATION CRITERIA

The Postal Act of 2006 defines “attributable costs” as direct and indirect Postal Service
costs that have a reliably identified causal relationship to a specific product. The PRC
states12 that when an activity supports a single product, the costs for that activity should
be attributed to that product.

In the “Summary Description of USPS Development of Costs by Segments and
Components Fiscal Year 2008,” Section 16.3.15, filed with the PRC on July 1, 2009, the
Postal Service stated they reported advertising costs as follows:

Advertising: Costs for advertising are incurred to provide public information, to promote
the Postal Service, and to encourage mailers to perform activities to improve postal
efficiency, such as “mail early” and “use ZIP” campaigns. With the exception of media
costs for the promotion of particular products (which are treated as product
specific costs toward those products), these costs represent management decision
factors and are unrelated to mail volume. As a result, these other advertising costs are
classified as institutional costs. Costs for promotional supplies for specific products,
such as posters and fliers do not vary with volume and are classified as product specific
to the individual classes of mail.

We held discussions with PRC, Law Department, and Finance managers, and reviewed
applicable PRC and Postal Service guidance. Based on these discussions and a review
of the guidance, we established and applied the following criteria to calculate
advertising costs by product in FYs 2008 through 2010 year to date:

          For advertising costs related to one product (such as Priority Mail), 100 percent
           of the costs are attributed to that product.

          For advertising costs related to two products in equal ratios (such as 50 percent
           to Priority Mail and 50 percent to Express Mail®), half of the costs are attributed
           to each of the two specific products.

          Advertising costs related to all other situations (such as, three products or two
           products with unequal ratios) are allocated to institutional costs.




12
     Docket Number RM2008-2 filed on October 10, 2008.




                                                         13
Advertising Cost Reporting                                                                          CRR-AR-10-004



     APPENDIX D: FY 2009 - ADVERTISING COSTS REPORTED BY ADVERTISING
                                MANAGEMENT

                                                                       Over/
                                                     OIG              (Under)            Aggregate
         Category              Advertising        Calculated         Statement          Misstatement
 Market Dominant
 Products:
  First-Class                  $      617,243     $      107,033      $     510,210          $    510,210
  Standard Mail®                    6,018,375          5,979,309             39,066                39,066
  Market Dominant
   Services                         1,343,395           643,854             699,541               699,541
  Subtotal Market
  Dominant                          7,979,013          6,730,196           1,248,817             1,248,817

 Competitive
 Products:13
  Express Mail
  Priority Mail
  Parcel Select Mail
  Premium Forwarding
    Service
  International Mail and
   Services
  Subtotal Competitive             57,282,431         71,573,956     (14,291,525)             19,218,469

 Institutional Costs               38,934,540         25,891,832          13,042,708          13,042,708
 Total Advertising
 Costs                        $104,195,984       $104,195,984         $           0          $33,509,994




13
  For FYs 2009 and 2010, allocation of core team expenses to Priority Mail and institutional costs was based on the
ratio of Priority Mail advertising costs to the total corporate advertising costs net of core team expenses. The
contractors were unable to provide a supportable estimate of core team expense allocations.




                                                         14
Advertising Cost Reporting                                                                   CRR-AR-10-004



       APPENDIX E: FY 2009 - ADVERTISING COSTS REPORTED IN THE ACR

                                                                 Over/
                                                 OIG            (Under)             Aggregate
         Category                 ACR         Calculated       Statement           Misstatement
 Market-Dominant
 Products:
  First-Class                $      617,243   $      107,033   $        510,210       $    510,210
  Standard Mail                   6,018,375        5,979,309             39,066             39,066
  Market Dominant
  Services                        1,343,395         643,854             699,541            699,541
  Subtotal Market
  Dominant                        7,979,013        6,730,196           1,248,817          1,248,817
 Competitive Products:
  Express Mail
  Priority Mail                                                                )
  Parcel Select Mail
  Premium Forwarding
   Service
  International Mail and
   Services
  Subtotal Competitive           68,424,612       71,573,956   (3,149,344)                8,076,288

 Institutional Costs             27,792,359       25,891,832           1,900,527          1,900,527
 Total Advertising
 Costs                       $104,195,984     $104,195,984         $          0       $11,225,632




                                                     15
Advertising Cost Reporting                                                                          CRR-AR-10-004



                    APPENDIX F: FY 2010 - INTERIM ADVERTISING COSTS14

                                                                            Over/
                                                       OIG                 (Under)          Aggregate
         Category                Advertising        Calculated            Statement        Misstatement
 Market-Dominant
 Products:
  First-Class                     $       83,389     $       75,550       $        7,839      $       7,839
  Standard Mail                        1,910,786          1,909,411                1,375              1,375
  Domestic Market
  Dominant Services                     629,756            559,232                70,524             70,524
  Subtotal Market
  Dominant                             2,623,931          2,544,193               79,738             79,738

 Competitive Products:
  Express Mail
  Priority Mail
  Parcel Select Mail
  Premium Forwarding
   Service
  International Mail and
   Services
  Subtotal Competitive                44,745,000         66,568,961       (21,823,961)            22,167,413

 Institutional Costs                  29,689,604          7,945,381           21,744,223          21,744,223
 Total Advertising
 Costs                            $77,058,535        $77,058,535              $       0       $43,991,374




14
     Includes advertising costs tracked by advertising management only.




                                                            16
Advertising Cost Reporting                                                                           CRR-AR-10-004



       APPENDIX G: FY 2008 - ADVERTISING COSTS REPORTED IN THE ACR

                                                                        Over/
                                                     OIG               (Under)            Aggregate
        Category                    ACR           Calculated          Statement          Misstatement
 Market-Dominant
 Products:
  Total First-Class            $      171,978     $       84,517      $     87,461            $     87,461
  Total Standard Mail              11,086,897         10,510,881           576,016                 576,016
  Total Market
  Dominant Services                  690,121             89,955            600,166                 600,166
  Subtotal Market
  Dominant                         11,948,996         10,685,353          1,263,643               1,263,643

 Competitive Products:
  Express Mail
  Priority Mail
  Parcel Select Mail
  Premium Forwarding
   Service
  International Mail and
   Services
  Subtotal Competitive             16,831,046          8,199,394          8,631,652               8,631,652

 Institutional Costs15             77,782,233         87,677,528       (9,895,295)                9,895,295
 Total Advertising
  Costs                        $106,562,275       $106,562,275        $           0          $19,790,590




15
  Institutional costs for FYs 2008 and 2009 include costs reported by advertising management, field advertising, and
others that are classified as institutional by Finance.




                                                         17
Advertising Cost Reporting                                                   CRR-AR-10-004



                         APPENDIX H: NON-MONETARY IMPACTS

A misallocation of costs can occur when Postal Service costs are misclassified as
volume variable, product-specific or institutional costs. These misclassifications do not
result in any recoverable costs, but could shift costs between and among mail products
and institutional cost categories. The aggregate misstatement of advertising costs
encompass product specific and institutional costs and are described in detail in
Appendices E, F, and G, and are summarized below:

                                Non-Monetary Impacts

               Finding Impact                 Category               Amount
                  1         Misallocation of Costs - FY 2008        $19,790,590
                  1         Misallocation of Costs - FY 2009         11,225,632
                  1         Misallocation of Costs - FY 2010         43,991,374

                             TOTAL                                  $75,007,596




                                            18
Advertising Cost Reporting                                  CRR-AR-10-004



                        APPENDIX I: MANAGEMENT’S COMMENTS




                                       19
Advertising Cost Reporting        CRR-AR-10-004




                             20
Advertising Cost Reporting        CRR-AR-10-004




                             21
Advertising Cost Reporting        CRR-AR-10-004




                             22
